No. 20-

In the Supreme Court of the United States

Brent Anderson
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent,

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 89 and 18 U.S.C. ยง 83006A(d)(7), Petitioner asks leave to file
the accompanying Petition for Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit without prepayment of costs and to proceed in forma
pauperis. Petitioner was represented by counsel appointed under the Criminal
Justice Act, 18 U.S.C. ยง 3006A (b) and (c), both in the United States District Court
for the Northern District of Texas and on appeal to the United States Court of
Appeals for the Fifth Circuit.

Respectfully submitted on July 27, 2020.

Brandon Beck
Counsel of Record

Assistant Federal Public Defender
Federal Public Defenders Office
Northern District of Texas

1205 Texas Ave. #507

Lubbock, Texas 79401

(806) 472-7236
brandon_beck@fd.org
